                      U.S. Department of Agriculture
                         Office of Inspector General




American Recovery and Reinvestment Act -
      Review of the Effectiveness of
 Department/Agency Data Quality Review
               Processes




                               Audit Report 50703-1-DA
                                             June 2010
                                          U.S. Department of Agriculture
                                           Office of Inspector General
                                            Washington, D.C. 20250

June 23, 2010

REPLY TO
ATTN OF:           50703-1-DA

TO:                Jon M. Holladay
                   Acting Chief Financial Officer
                   Office of the Chief Financial Officer

THROUGH: Kathy Donaldson
         Audit Liaison Officer
         Office of the Chief Financial Officer

FROM:              Gil H. Harden /s/
                   Assistant Inspector General
                    for Audit

SUBJECT:           American Recovery and Reinvestment Act – Review of the Effectiveness of
                   Department/Agency Data Quality Review Processes


The American Recovery and Reinvestment Act of 20091 (Recovery Act), enacted in
February 2009, states that the use of Recovery Act funds should be transparent: reported clearly,
accurately, and in a timely manner. The U.S. Department of Agriculture (USDA) received
$28 billion in Recovery Act funding in a number of program areas. On December 18, 2009, the
Office of Management and Budget (OMB) issued OMB M-10-08, Updated Guidance on the
American Recovery and Reinvestment Act – Data Quality, Non-Reporting Recipients, and
Reporting of Job Estimates. OMB M-10-08 provides guidance to Federal agencies to improve the
quality of data reported by award recipients under the general recipient reporting guidance
outlined in Section 15122 of the Recovery Act. As of December 31, 2009, USDA had
3,065 awards that were required to be reported based on the criteria outlined in Section 1512.

This audit focused on USDA’s internal controls, policies, and procedures for implementing the
OMB M-10-08-specified recipient reporting requirements. It is significant to note that additional
guidance by OMB was distributed to the Federal community three weeks prior to the quarter
ending December 31 reporting period began. The Recovery Act recipient reporting guidance
contained in OMB M-10-08 called for agencies disbursing Recovery Act funds to implement a




1
 American Recovery and Reinvestment Act of 2009, Pub. L. No. 111-5, 123 Stat. 115.
2
 Section 1512 of the Recovery Act requires reports on the use of Recovery Act funding by recipients no later than the 10th day
after the end of each calendar quarter (beginning with the quarter ending September 30, 2009) and for the Federal agency
providing those funds to make the reports publicly available no later than the 30th day after the end of that quarter.
                                                                                                                                      2

limited data review process to identify material omissions3 and/or significant errors4 and to notify
the recipients of the need to make complete, accurate, and timely adjustments. Our objective was
to determine whether USDA had fully implemented an internal control structure that is effective
in ensuring recipient data are reported completely, accurately, and in a timely manner, and that
any material omissions and/or significant errors are identified and corrected.

We found that the Department has implemented policies and general procedures that follow the
guidance outlined in OMB M-10-08; however, the level of effort and the methodologies used by
the various USDA agencies to implement this guidance differed significantly from agency to
agency, resulting in errors and material omissions not being identified and corrected for USDA as
a whole. For example, for USDA’s 3,065 awards, we identified 450 instances in which the
recipient-reported award numbers on FederalReporting.gov and the agency-reported award
numbers on USDA’s control list did not match. OMB considers an incorrect award number to be
a significant error because the award number is the primary method of identifying awards that are
not being reported by recipients on Federalreporting.gov. This occurred because the Office of the
Chief Financial Officer (OCFO) has not implemented internal controls to ensure that agencies’
monitoring efforts are consistent, effective, and complete. While OCFO has made significant
progress by issuing recommended policies and general procedures since the last Office of
Inspector General (OIG) audit of recipient reporting (OIG Audit 11703-1-HQ, American
Recovery and Reinvestment Act of 2009 Reporting Oversight, October 23, 2009), OCFO has only
one staff member dedicated to Recovery Act monitoring. OCFO stated that it did not receive any
Recovery Act funding to add additional staff, and that additional staffing would be needed for
more effective monitoring. We recommend that the OCFO reevaluate its staffing priorities and
assign sufficient staff to develop and implement a process to ensure that all awards are reported
and that agencies follow an effective and consistent methodology for reviewing recipient data to
identify significant errors and material omissions.

Based on OCFO’s June 10 response, we were able to reach management decision on the report’s
recommendation.

Background

USDA received $28 billion in funding under the Recovery Act in a number of program areas,
including farm loans, watershed programs, supplemental nutrition assistance, wildland fire
management, construction projects, rural housing, rural business, water and waste disposal, and
broadband. To ensure that these funds are spent appropriately, the Recovery Act calls for
unprecedented levels of transparency and accountability, including recipients reporting on their
use of the funds on a quarterly basis. This audit focused on the Department’s and agencies’
reporting for the quarter ending December 31, 2009. We reviewed the Department and agency
efforts to fully implement an internal control structure that is effective in ensuring that recipient
data are reported completely, accurately, and in a timely manner, and that any material omissions
and/or significant errors are identified and corrected.

3
  Material omissions are instances where required data are not reported or reported information is not otherwise responsive to the
data requests, resulting in significant risk that the public is not fully informed as to the status of a Recovery Act project or activity.
4
  Significant errors are instances where required data are not reported accurately and such erroneous reporting results in significant
risk that the public will be misled or confused by the recipient report in question.
                                                                                                                                    3


The term “recipient” includes entities—such as States, municipalities, and businesses—that
receive Recovery Act funds through a grant, loan, or contract, referred to as an “award.” At the
end of each quarter, each award recipient provides information on the FederalReporting.gov5
website about the status of its award(s). Before this information can be released to the public on
the Recovery.gov website, the relevant agency is required to perform a data quality review to
identify material omissions and significant errors, and to ensure that corrections are made. OMB
M-10-08 outlines guidance related to this data quality review. As of December 31, 2009, USDA
had 3,065 awards that were required to be reported based on the guidance in OMB M-10-08.

We audited USDA’s implementation of OMB M-10-08 to determine whether the information
submitted by recipients was complete, accurate, and timely. As the owner of the Department’s
financial management systems, OCFO has taken the lead in implementing Recovery Act recipient
reporting guidance across USDA.

Scope and Methodology

We interviewed responsible Department and agency personnel, attended meetings, and analyzed
data reported by USDA, USDA agencies, and award recipients for the quarter ending
December 31, 2009. We conducted the audit from March 2010 through May 2010 in accordance
with generally accepted Government Auditing Standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.

Objective

Our objective was to determine if USDA and USDA agencies awarding Recovery Act funds have
fully implemented an internal control structure that is effective in ensuring that recipient data are
reported completely, accurately, and in a timely manner, and that any material omissions and/or
significant errors are identified and corrected.

Findings and Recommendations

We found that the Department has implemented policies and general procedures that follow the
guidance outlined in OMB M-10-08. However, the level of effort and the methodologies used by
the various USDA agencies to implement this guidance differed significantly from agency to
agency, resulting in errors and material omissions not being identified and corrected. This
occurred because OCFO has not implemented internal controls to ensure that agencies’
monitoring efforts are consistent, effective, and complete. While OCFO has made significant
progress by issuing recommended policies and general procedures since OIG’s prior audit of

5
  The information reported by all prime recipients (and those sub-recipients to which the prime recipient has delegated reporting
responsibility) will be submitted through www.FederalReporting.gov. This Web portal is the Government wide data collection
system that is used to collect all Recovery Act recipient reports. Once data has been submitted to FederalReporting.gov and
reviewed by USDA, the information will be available to the public via the Web portal www.recovery.gov.
                                                                                                                    4

recipient reporting, OCFO stated that it did not receive Recovery Act funding for this effort and
has only one staff member dedicated to the monitoring effort. We recommend that OCFO
reevaluate its staffing priorities and that it develop and implement a process to ensure all awards
are reported and agencies follow an effective and consistent methodology for reviewing recipient
data to identify significant errors and material omissions.

We performed a review of the USDA recipient-reported data on FederalReporting.gov to identify
significant errors and material omissions that were not identified by the respective USDA
agencies for the quarter ending December 31, 2009. To perform this review, we compared
USDA’s list of Recovery Act awards to FederalReporting.gov’s recipient-reported awards. We
found a number of discrepancies, omissions, and errors, as listed below.

    ·   We found 450 instances in which the recipient-reported award numbers on
        FederalReporting.gov and the agency-reported award numbers on USDA’s control list did
        not match. Each Recovery Act award has an associated award number, but the numbering
        system is not uniform across the Department. Instead, each agency determines its own
        award numbering system. Many of the discrepancies between recipient-reported award
        numbers and agency-reported award numbers resulted from the recipients’ inclusion of
        superfluous information (such as extra prefixes/suffixes or hyphens) or erroneous data in
        the award number field in FederalReporting.gov. Such discrepancies made it difficult for
        agencies and OIG to match the agency-reported award numbers on USDA’s control list
        with the recipient-reported award numbers on FederalReporting.gov.

        When agencies were reviewing recipient-reported data on FederalReporting.gov, they
        should have identified incorrect/non-matching award numbers, notified the award
        recipients of these errors, and worked with award recipients to correct them. OMB
        considers an incorrect award number to be a significant error because the award number is
        the primary method of identifying awards that are not being reported by recipients on
        Federalreporting.gov. In an effort to reduce the occurrence of such errors, OMB M-10-08
        required agencies to supply award recipients with their “key award information,”6
        including award numbers, by December 24, 2009, prior to the reporting time frame for the
        quarter ending December 31, 2009.

        We found that most agencies—seven out of eight—provided the “key award information”
        to award recipients; however, errors in the award numbers still occurred that the agencies
        did not identify during their respective reviews. OIG had to use additional data elements
        from USDA’s control list and FederalReporting.gov to match awards with an incorrect
        award number. Requiring a uniform, consistent Department wide system for numbering
        awards would help to remedy incorrect award numbers.

    ·   We found 105 recipient-reported awards on FederalReporting.gov that did not appear on
        the Department’s control list of awards. We were able to determine that 31 of these
        105 awards were missing because a single USDA agency had failed to report them. We
6
 OMB M-10-08 defined key award information as Award Type, Award Number, Order Number, Funding Agency Code,
Awarding Agency Code, Government Contracting Office Code, Award Date, Award Amount, Catalogue of Federal Domestic
Assistance Number, Activity Code, and Program Source (TAS) Code.
                                                                                                                            5

         were unable to reconcile the remaining 74 recipient-reported awards or to determine
         whether USDA agencies were monitoring and reviewing these awards.

    ·    The 31 awards described above were not on the Department’s control list because OCFO
         did not know that the agency had granted the awards. This occurred because OCFO tracks
         awards only by the recipient-reported Treasury Account Symbol (TAS) code in
         FederalReporting.gov. The TAS code identifies the funding agency, which is not
         necessarily the awarding agency. In the case of these 31 awards, the funding and
         awarding agencies were different. OCFO included only the funding agency on its e-mail
         list for the distribution of correspondence, guidance updates, and requests for information
         for OMB data calls. As a result, the awarding agency’s awards were not included on
         USDA’s control list, and the awarding agency did not know that it needed to certify to
         OMB7 that it had provided recipients with “key award information,” which it did not.
         Currently, USDA has one “agency code” for the Department and both the “awarding
         agency code” and the “funding agency code” use this code. This could have been
         prevented if FederalReporting.gov used an agency level identifier to identify the agency
         within USDA in the “awarding agency code” field and the “funding agency code” field.

    ·    We found 8 agency-reported awards that were not correspondingly reported by recipients
         on FederalReporting.gov. USDA agencies should have identified these awards as having
         been omitted from FederalReporting.gov’s list and should have notified the award
         recipients.

We found other errors that the Department and agencies would have identified if they had
performed the OMB-suggested logic checks recommended in OCFO’s guidance:

    ·    We identified 16 awards that were erroneously posted under the TAS code for a single
         USDA agency. This agency has issued only one award during the quarter ending
         December 31, 2009. The other 15 awards were erroneously attributed to the agency
         because the award recipients incorrectly reported this agency’s TAS code instead of the
         TAS code for the correct agency. OCFO guidance recommends that each agency monitor
         recipient-reported data to ensure that all awards attributed to the agency do in fact belong
         to it. Had the agency been performing such monitoring, it would have identified these
         errors.

    ·    We identified 10 USDA awards included on FederalReporting.gov that had erroneous
         non-USDA TAS codes associated with them.

    ·    We identified 20 award recipients that reported creating jobs while at the same time
         reporting that they had not expended any funds.

    ·    We identified 2 recipients that reported expending more funds than their award amounts.


7
 This agency did not certify to OMB that they provided the award recipients “key award information” by December 24, 2009.
They also missed two OMB data calls of award control totals due December 31, 2009 and February 26, 2010.
                                                                                                 6

   ·   We identified 12 recipients reporting an award date that was either prior to the enactment
       of the Recovery Act or after the reporting date.

   ·   We identified 9 awards where the recipient identified the project as being complete and
       therefore they were filing their final report on FederalReporting.gov; however, the
       recipient also reported on FederalReportng.gov that the “project status” for the same
       award was less than 100 percent complete.

   ·   We identified 2 recipients that reported an award amount of $0. One of the recipients,
       awarded a $35,000 grant, reported an award amount of $0 for the specified quarter, and at
       the same time reported the project as 50% complete. Grantees are required to report the
       amount of the award even if outlays have not been invoiced. The other recipient received
       a loan for $1.271 million in the specified quarter, but reported the award amount as $0.
       The agency awarding these two awards has stated that these errors were fixed for the
       quarter ending March 31, 2010.

For each agency that disbursed Recovery Act funds, we interviewed agency officials to determine
if the agency was receiving and distributing OCFO’s guidance on recipient reporting, and to
identify how the agency was reviewing recipient-reported data. We found that the distribution of
OCFO’s guidance was inconsistent, and that the level of effort and choice of methodology to
identify omissions and errors varied from one agency to another. Specifically, we found:

   ·   The agencies used different information systems and methods to validate the amounts of
       their awards. Some used existing program-specific systems to track and account for
       Recovery Act funds, while others used USDA’s financial accounting system, Foundation
       Financial Information System (FFIS). Even among the agencies that used FFIS, we found
       varying methods of identifying awards in the system. For example, in one agency the
       individual award number could only be found in the document number field. In another
       agency, individual order numbers for a single award had to be identified and added
       together to obtain the total award amount. In all cases, the systems used to track Recovery
       Act funds and account for them had not been designed with all of the fields and formats
       required for seamless Recovery Act reporting. The differences among systems make it
       impossible to develop one consistent award-matching process for all USDA agencies,
       making it difficult to match agency-reported data with recipient-reported data. Because of
       the inconsistency of systems, each USDA agency has had to implement its own
       monitoring methodology.

   ·   The agencies are not using the OMB-suggested logic checks recommended in OCFO’s
       guidance to identify significant errors in a consistent manner.

   ·   OMB M-08-10 required that USDA certify to OMB that the Department had provided key
       award information to recipients by December 24, 2009. However, instead of making this
       certification on behalf of the Department, OCFO delegated the certification requirement to
       the individual agencies and did not follow up with them to ensure that they had in fact
       performed the certification.
                                                                                                     7

   ·   OCFO failed to communicate Recovery Act guidance to an agency. OCFO’s primary
       method of communication is an e-mail list of agencies receiving Recovery Act funds. As
       noted previously, one awarding agency was inadvertently excluded from this list because
       the awarding agency and the funding agency were different agencies. Because OCFO did
       not notify this awarding agency that it was required to report its awards, the list of USDA
       awards that OCFO submitted to OMB was incomplete. Also, although OCFO established
       websites which included Recovery Act information for USDA agencies as a result of
       OIG’s previous review of recipient reporting, we noted that as of April 2010, OFCO had
       not updated these websites with the latest guidance for reporting for the quarter ending
       December 31, 2009. OCFO management stated that a lack of resources had prevented
       OCFO from updating these websites.

   ·   The numbers of errors and omissions that the agencies self-reported during OMB data
       calls showed that the levels of effort and monitoring were not consistent among agencies.
       For example, the agency with the most awards, 1,648 awards, did not identify any
       significant errors for the reporting period ending December 31, 2009, although our data
       analysis identified 380 significant errors for this agency for the same time period. The
       agency did not provide a response to 359 of the 380 errors that were related to non-
       matching award numbers. However, the agency acknowledged that errors were present
       for the remaining 21 errors we identified. Meanwhile, an agency with 871 awards
       identified 111 significant errors in its data and OIG’s analysis found an additional 24
       errors. This discrepancy suggests that the first agency was not sufficiently monitoring its
       data for errors.

We recommend that the OCFO reevaluate its staffing priorities and assign sufficient staff to
develop and implement a process to ensure that all awards are reported and that agencies follow
an effective and consistent methodology for reviewing recipient data to identify material
omissions and significant errors. Once material omissions and significant errors are identified,
agencies need to work with recipients to ensure that recipients report their information correctly
and that omissions are resolved in a timely manner.

OCFO Response

OCFO’s full response is attached. OCFO concurred with OIG’s findings and recommendation.
OCFO received funds in 2010 for recipient reporting oversight and is in the process of creating
the Transparency Reporting Team with five positions to improve the Department’s transparency
oversight capabilities and will work closely with the agencies that have the most errors identified
in this report. OCFO is working to update the guidance to further define the process by which all
awards are reported. The estimated date of completion for the OCFO actions is August 15, 2010.

OIG Position

We concur with the agency response for this recommendation and have reached management
decision.
                                    8

Agency’s Response




                    USDA’S




OFFICE OF THE CHIEF FINANCIAL OFFICER




         RESPONSE TO AUDIT REPORT
                       




United States              
Department of               TO:          Gil H. Harden                                      June 10, 2010 
                                         Assistant Inspector General for Audit 
Agriculture

Office of the Chief
                             
Financial Officer           FROM:        Jon M. Holladay      ‐S‐ 
                                         Acting Chief Financial Officer 
1400 Independence
Avenue, SW                                
                            SUBJECT:     OIG Audit Number 50703-1-DA: American Recovery and
Washington, DC                           Reinvestment Act – Review of the Effectiveness of
20250
                                         Department/Agency Data Quality Review Processes
                            
                            
                           Thank you for the opportunity to address your comments on the draft Office of 
                           Inspector General (OIG) Report entitled "American Recovery and Reinvestment 
                           Act – Review of the Effectiveness of Department/Agency Data Quality Review 
                           Processes."  
                            
                           General Comments:  
                            
                           This report found that the Department has implemented policies and 
                           procedures that follow the guidance outlined in an Office of Management and 
                           Budget (OMB) Memorandum M‐10‐08.  However, the level of effort and the 
                           methodologies used by the various USDA agencies to implement this guidance 
                           differed significantly from agency to agency, resulting in errors and material 
                           omissions not being identified and corrected for USDA as a whole.  The report 
                           recommends that the Office of the Chief Financial Officer (OCFO) assign 
                           sufficient staff to develop and implement a process to ensure that all awards 
                           are reported.  The agencies also need to follow an effective and consistent 
                           methodology for reviewing recipient data to identify significant errors and 
                           material omissions.   
                            
                           The Office of Management Budget issued guidance less than three weeks before 
                           the fourth quarter reporting period began, requiring new procedures and 
                           processes to be implemented by agencies in a short period of time.   
                            
                           The following addresses the recommendation addressed to the OCFO: 
                            
                           Recommendation 1: 
                           We recommend that the OCFO reevaluate its staffing priorities and assign 
                           sufficient staff to develop and implement a process to ensure that all awards 
                           are reported and that agencies follow an effective and consistent methodology 
                           for reviewing recipient data to identify material omissions and significant 
                           errors.  Once material omissions and significant errors are identified, agencies 
                           need to work with recipients to ensure that recipients report their information 
                           correctly and that omissions are resolved in a timely manner. 

                       
                                               An Equal Opportunity Provider and Employer
     




 
        Gil H. Harden                                                                  2
                 
         
        Management Response: 
         
        OCFO has addressed this recommendation.  It created the Transparency 
        Reporting Team to address the need for additional attention and staffing.  OCFO 
        also requested and received funding in the fiscal year 2010 budget to improve 
        the Department's transparency oversight capabilities. The Transparency 
        Reporting Team has five positions.  Three are currently filled with full time 
        employees dedicating a significant amount of their time to Recovery Act 
        reporting.  For the two remaining positions, OCFO has also advertised one 
        vacancy.  A detailee occupies the other vacancy.   
         
        OCFO is working on an update to the current recipient reporting guidance 
        which will be discussed with agency contacts on June 15th.  This updated 
        guidance further defines the process by which all awards are reported.  This 
        will ensure that USDA agencies follow an effective and consistent methodology 
        for reviewing recipient data to identify material omissions and significant 
        errors.   
         
        OCFO is working with the agencies and their recipients to ensure that recipients 
        report their information correctly and that omissions are resolved in a timely 
        manner.  OCFO is also working closely with the agencies that have the most 
        errors found by OIG to ensure that recipient reporting data will be reviewed 
        and corrected in the first quarter of 2010 and future reporting periods.  
        Recipients are precluded by OMB Memo 10‐08 “Updated Guidance on the 
        American Recovery and Reinvestment Act – Data Quality, Non‐Reporting 
        Recipients and Reporting of Job Estimates” from correcting errors and 
        omissions identified in the third and fourth quarters of 2009.   
         
        The estimated date to complete final action is August 15, 2010.   
         
        If you have any questions or need additional information, please contact me at 
        (202) 720‐5539, or have a member of your staff contact Kathy Donaldson at  
        (202) 720‐1893. 
                                                     


        .

         



     
                             An Equal Opportunity Provider and Employer
